No. 20-1599
IN THE

Supreme Court of the United States
————
JOHN DOE 7, JANE DOE 7, JUANA DOE 11,
MINOR DOE 11A, SEVEN SURVIVING CHILDREN OF
JOSE LOPEZ 339, AND JUANA PEREZ 43A,
Petitioners,

v.

CHIQUITA BRANDS INTERNATIONAL, INC.,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
————
BRIEF IN OPPOSITION
————

FRANK A. DANTE
MELISSA F. MURPHY
BLANK ROME LLP
One Logan Square
130 N. 18th Street
Philadelphia, PA 19103
(215) 569-5645
dante@blankrome.com
mfmurphy@blankrome.com

MICHAEL L. CIOFFI
Counsel of Record
THOMAS H. STEWART
BLANK ROME LLP
201 East Fifth Street
1700 PNC Center
Cincinnati, OH 45202
(513) 362-8701
cioffi@blankrome.com
stewart@blankrome.com

Counsel for Respondent
August 6, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
The question presented by the proceedings below
is whether the Eleventh Circuit erred in holding
that the district court did not abuse its discretion by
placing the burden of proof on the party opposing
modification of a stipulated protective order when
that party did not—as a matter of fact—show good
cause for the protections at the time the order was
first entered.

(i)

ii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Respondent
Chiquita Brands International, Inc. (“Chiquita”) hereby states that it is a wholly-owned subsidiary of
Chiquita US Corporation. No publicly held company
owns 10% or more of Chiquita’s stock.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

CORPORATE DISCLOSURE STATEMENT .....

ii

TABLE OF AUTHORITIES ................................

iv

INTRODUCTION ................................................

1

STATEMENT OF THE CASE ............................

6

REASONS TO DENY THE WRIT ......................

13

I. For Decades, Federal Courts Have Uniformly Applied the Same Burden of Proof
Standard Applied by the Eleventh
Circuit........................................................

13

II. Petitioners Attempt to Manufacture a
Circuit Split by Mischaracterizing the
Eleventh Circuit’s Decision ......................

15

III. There Is No Three-Way Circuit Split .......

19

IV. There Is No Frequently Recurring and
Important Issue in Civil Litigation Presented in the Petition Because the Legal
Standard and Analysis for Modifying a
Protective Order Is Well Developed,
Understood and Applied Uniformly by
the Federal Courts ....................................

28

V. Petitioners Forfeited Their Reliance
Argument ..................................................

29

VI. Even if the Court Were to Consider Petitioners’ Reliance Argument, It Should Be
Rejected .....................................................

30

CONCLUSION ....................................................

33

(iii)

iv
TABLE OF AUTHORITIES
CASES

Page(s)

American Tel. & Tel Co. v. Grady,
594 F.2d 594 (7th Cir. 1978) ...................

21

Arkansas Game & Fish Comm’n v.
United States,
568 U.S. 23 (2012) ..................................... 29-30
Bayer AG v. Barr Lab.,
162 F.R.D. 456 (S.D.N.Y. 1995) .......... 15, 26, 28
Chicago Tribune Co. v. Bridgestone/
Firestone, Inc.
263 F.3d 1304 (11th Cir. 2001) ..... 14, 16, 28, 29
Cutter v. Wilkinson,
544 U.S. 709 (2005) ...................................

30

DePuy Synthes Prods., Inc. v.
Veterinary Ortho. Implants, Inc.,
990 F.3d 1364 (Fed. Cir. 2021) .................

28

Escobar v. Holder,
657 F.3d 537 (7th Cir. 2011) .....................

7

Factory Mut. Ins. Co. v.
Insteel Industries, Inc.,
212 F.R.D. 301 (M.D.N.C. 2002)...............

15

Gambale v. Deutsche Bank AG,
377 F.3d 133 (2d Cir. 2004) .....................passim
Geller v. Branic Int’l Realty Corp.,
212 F.3d 734 (2d Cir. 2000) ................ 21, 22, 23
Gulf Oil Co. v. Bernard,
452 U.S. 89 (1981) .....................................

12

v
TABLE OF AUTHORITIES—Continued
Page(s)
H.D. Media Co. v. United States
Dept. of Justice (In re: National
Prescription Opiate Litig.),
927 F.3d 919 (6th Cir. 2019) .......... 15, 19, 28, 29
H.L. Hayden Co. v. Siemens Med. Sys. Inc.,
106 F.R.D. 551 (S.D.N.Y. 1985) ...............passim
Heraeus Kulzer, GMBH v. Biomet, Inc.,
881 F.3d 550 (7th Cir. 2018) .......... 20, 21, 27-28
In re “Agent Orange” Prod. Liab. Litig.,
821 F.2d 139 (2d Cir. 1987) ...................... 30-31
In re Avandia Mktg., Sales Pracs. &
Prod. Liab. Litig.,
924 F.3d 662 (3d Cir. 2019) ......................

27

In re Enron Corp. Sec., Derivative,
& ERISA Litig.,
2009 WL 3247432
(S.D. Tex. Sept. 29, 2009) .........................

15

In re Methyl Tertiary Butyl Ether
(MTBE) Prods. Liab. Litig.,
60 F. Supp. 3d 399 (S.D.N.Y. 2014)..........

26

In re Violation of Rule 28(d),
635 F.3d 1352 (Fed. Cir. 2011) .................

28

Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004) ...................................

20

Izumi Seimitsu Kogyo Kabushiki
Kaisha v. United States Phillips Corp.,
510 U.S. 27 (1993) ..................................

19

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Kiobel by Samkalden v. Cravath,
Swaine & Moore LLP,
895 F.3d 238 (2d Cir. 2018) ......................

25

Lugosch v. Pyramid Co.,
435 F.3d 110 (2d Cir. 2006) ......................

32

Martindell v. International Telephone &
Telegraph Corp.,
594 F.2d 291 (2d Cir. 1979) ...................... 23, 24
Nielsen Co. (U.S.), LLC v. Success Sys.,
112 F. Supp. 3d 83 (S.D.N.Y. 2015)..........

25

OBB Personenverkehr AG v. Sachs,
577 U.S. 27 (2015) .....................................

29

Pansy v. Borough of Stroudsburg,
23 F.3d 772 (3d Cir. 1994) .................. 26, 27, 30
Phillips ex rel. Estates of Byrd v.
General Motors Corp.,
307 F.3d 1206 (9th Cir. 2002) ................... 15, 19
Procter & Gamble Co. v. Bankers Tr. Co.,
78 F.3d 219 (6th Cir. 1996) .......................

28

SEC v. TheStreet.com,
273 F.3d 222 (2d Cir. 2001) ................ 24, 25, 31
Sinaltrainal v. Coca-Cola Co.,
256 F. Supp. 2d 1345 (S.D. Fla. 2003) .....

7

Thigpen v. Roberts,
468 U.S. 27 (1984) .....................................

28

vii
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Aetna Inc.,
No. 1:16-CV-1494 (JDB), 2016 WL
8738422 (D.D.C. Sept. 22, 2016) ..............

28

United States v. Homeward
Residential, Inc.,
No. 4:12-CV-461, 2016 WL
279543 (E.D. Tex. Jan. 22, 2016) .............

15

United States v. Jones,
565 U.S. 400 (2012) ...................................

29

Yee v. City of Escondido,
503 U.S. 519 (1992) ...................................

20

STATUTES AND REGULATIONS
21 U.S.C. § 848 .............................................

8

28 U.S.C. § 1782 ........................................... 20, 25
28 U.S.C. § 1782(a) .......................................

20

International Emergency Economic Powers
Act, 50 U.S.C. § 1705(b) ............................

9

31 C.F.R. § 594.204 ......................................

9

RULES
Fed. R. Civ. P. 24 ..........................................

24

Fed. R. Civ. P. 26 .......................................... 16, 27
Fed. R. Civ. P. 26(c) .....................................passim
Fed. R. Evid. 702 ..........................................

10

Sup. Ct. R. 10 ................................................

4

Sup. Ct. R. 14.1(a) .................................... 4, 19, 20

viii
TABLE OF AUTHORITIES—Continued
COURT FILINGS

Page(s)

In re: Chiquita Brands Int’l, Inc. Alien Tort
Statute and Shareholder Derivative Litig.,
08-md-01916:
Doc. 2253 (S.D. Fla. Jan. 30, 2019) .......... 10, 11
Doc. 2277 (S.D. Fla. Feb. 13, 2019) ..........

30

Doc. 2282-34 (S.D. Fla. Feb. 15, 2019) .....

8

Doc. 2343-33 (S.D. Fla. Mar. 15, 2019) ....

9

Doc. 2343-36 (S.D. Fla. Mar. 15, 2019) ....

9

Doc. 2346-1 (S.D. Fla. Mar. 16, 2019) ......

9

Doc. 2346-3 (S.D. Fla. Mar. 16, 2019) ......

7

Doc. 2551 (S.D. Fla. Sept. 5, 2019) ..... 6, 7, 9, 10
In re: Chiquita Brands Int’l, Inc. Alien Tort
Statute and Shareholder Derivative Litig.,
19-11494:
Corrected Appellants’ Brief (11th Cir.
June 25, 2019) ...........................................

30

Reply Brief (11th Cir. July 18, 2019) .......

30

OTHER AUTHORITIES
Federal Judicial Center, Manual for Complex
Litigation (4th ed. 2004) ...........................

18

INTRODUCTION
Petitioners’ narrative in the Question Presented
mischaracterizes the record in the lower courts and
misstates what the Court would need to decide in
this appeal. Amici rely on the same mischaracterization and misstatement. The district court and Eleventh Circuit decided two separate and distinct issues.
The first issue was whether Petitioners could continue
to proceed under pseudonym after the close of discovery. The district court held they could not and the
Eleventh Circuit affirmed, finding that the district
court did not abuse its discretion “when it held that
the pseudonymous appellants failed to show that their
privacy rights outweigh the presumption of judicial
openness.” Pet. App. 16a. Petitioners expressly concede that they “do not challenge that ruling here.”
Pet. 13 n.5. Petitioners have not sought a writ on this
issue and have waived their ability to do so.1
The second issue was whether the district court—
when weighing Respondent’s motion to modify a stipulated protective order—abused its discretion by placing the burden on Petitioners to show good cause for
continuing to protect certain “private facts,” keeping
them out of the judicial record and hidden from the
public, when Petitioners had not shown good cause in
the first instance for such protection. The Eleventh
1

Petitioners attempt to distort the issues by claiming that the
protective order “also protects the use of pseudonyms” and therefore “is the primary safeguard at issue.” Pet. 13 n.5. Not so. As
the Eleventh Circuit succinctly ruled: “Nowhere in the protective
order did the district court grant the pseudonymous appellants
leave to proceed anonymously. As the district court recognized in
a later order, it never considered the propriety of pseudonyms
until Chiquita moved to preclude the use of pseudonyms.” Pet.
App. 15a.

2
Circuit held that there was no abuse of discretion
because “the record shows that neither party ever
disputed, challenged, or litigated the protective order’s
restrictions on the appellants in any way. Thus, in
order to be entitled to the continued protection of
‘private facts,’ the burden plainly fell on the appellants
to establish ‘good cause.’” Pet. App. 22a. The Eleventh
Circuit and the district court found that Petitioners
failed to show good cause to conceal their private
facts for the same reasons that they were not entitled
to continue proceeding under pseudonyms: “in neither
instance did the appellants establish a sufficient
nexus between the claimed threats and the disclosure
of their identities; the proffered facts were neither
specific nor concrete, and the appellants gave no other
justification for their private fact protections.” Id.
In challenging the Eleventh Circuit’s decision on
the second issue, Petitioners cast their Question
Presented as an issue of law—who bears the burden of
proof on a motion to modify a protective order. It is,
instead, a fact-bound question as to what was or
was not disputed, challenged or litigated in the trial
court at the time the protective order was entered
and subsequently on Respondent’s motion to modify.
Peeling back the form of Petitioners’ Question Presented, it becomes clear that Petitioners at best complain only of unfavorable factual findings, not a misapplication or misstatement of a rule of law.
Petitioners manufacture two reasons for a writ. The
first is that the Eleventh Circuit’s decision “deepened
a three-way circuit split” over which party bears the
burden of proof to modify a stipulated protective order
entered under Rule 26(c) of the Federal Rules of
Civil Procedure. The second is a hyperbolic appeal to
emotion—that the Eleventh Circuit put “the lives of

3
the Petitioners and thousands of similarly situated
Plaintiffs in these consolidated cases at risk.” Pet. 4.
The Petition should be denied because both reasons
are devoid of merit.
First, there is no circuit split. The decision by a
unanimous panel of the Eleventh Circuit, a decision
in which en banc review was denied, unanimously, is
in accord with the decisions of the other circuits.
Indeed, as the Eleventh Circuit articulated, the decision is premised on a fundamental tenet of our system
of justice: “A lawsuit is a public event. Parties who
ask a court to resolve a dispute must typically walk
in the public eye.” Pet. App. 4a. It is axiomatic that
a party who seeks to withhold information from the
public record must show good cause. Fed. R. Civ. P.
26(c). No court has held otherwise.
Here, Petitioners never made that showing—
neither in the first instance when the protective order
was entered before discovery commenced, nor when
Respondent moved to modify it at the close of discovery, as summary judgment briefing began.
When a party opposing modification of a protective
order never established good cause for withholding
information from the public in the first place, that
party bears the burden to establish good cause in
order to defeat modification and continue the secrecy.
There is no “three-way circuit conflict” over this factbound issue. The Eleventh Circuit’s decision is a common sense, straightforward principle of law. The converse would be antithetical: even though a party did
not show—as a matter of fact—good cause when the
protective order was first entered, it can nevertheless
keep information secret and out of the public record

4
without showing good cause when the protective
order is later challenged.
The Eleventh Circuit’s decision is not in conflict
with the decisions of the Second, Seventh or Third
Circuits cited by Petitioners, cases easily reconciled
by their facts and circumstances. Indeed, given the
record facts of the case—fact-finding affirmed by the
Eleventh Circuit and not challenged by Petitioners—
the decision below is logical, unremarkable and consistent with decisions from courts throughout the
country when there is no showing of good cause in
the first instance. Petitioners do not challenge the
Eleventh Circuit’s rulings, grounded in the factual
record, that Petitioners had not shown good cause
when the protective order was entered and did not
meet that burden when Respondent challenged the
need for the protective order’s sweeping prohibitions.2
Petitioners’ second argument that the Eleventh
Circuit “put the lives of Petitioners and thousands of
similarly situated plaintiffs in these consolidated cases
at risk” is entirely unfounded. Pet. 4. This argument
2

Petitioners’ misstatement of the Question Presented as one
of law rather than fact violates the Court’s rules and case law. To
raise an error in the fact-finding below, a petition must raise
the question in a straightforward manner in the Question Presented. Sup. Ct. R. 14.1(a). Here, that question would be whether
the Eleventh Circuit erred when finding, under an abuse of
discretion standard, that “[t]he district court’s interpretation of
its own order was entirely reasonable” in finding no good cause
shown given the facts in the record. Petitioners’ dilemma, of
course, was that if they followed the rules and raised this
question properly, their petition would be uncertworthy from the
get-go under Rule 10: “A petition for a writ of certiorari is rarely
granted when the asserted error consists of erroneous fact findings or the misapplication of a properly stated rule of law.” This
Petition should likewise be denied.

5
is also incendiary and insulting to the courts below. In
affirming the district court, the Eleventh Circuit held:
The district court engaged in balancing sufficient to satisfy Rule 26(c), as it weighed the
appellants’ safety interests against Chiquita’s
interests in administrative feasibility. Further, when we review the entire record,
including the protective order and the district
court’s order dissolving part of it, there can
be no question that the court’s order was
drawn with precision, effectively reviewed
less onerous alternatives, and precisely
delimited the duration of the order.
Indeed, the trial court found that the evidence
presented by the appellants supported only “a
vague fear [of] retaliation or bias against
‘human right[s] defenders’ . . . but [did] not
explain how their role in this lawsuit . . .
would implicate the same interests as those
triggered by ‘human right[s] defenders’ in
present-day Colombia.” The appellants’ “generalized subjective assertions of fear” were
simply not “the kind of risk of physical or
other injury” required to treat them differently than other plaintiffs.
Pet. App. 23a-24a. The district court’s fact-finding
regarding potential harm or danger faced by the Petitioners, as affirmed by the Eleventh Circuit, is not
before the Court for review because Petitioners did
not present this question. Sup. Ct. R. 14.1(a). Thus,
even if the Court were inclined to engage in the
intense fact-finding done by the district court and then
reviewed and unanimously affirmed by the Eleventh

6
Circuit, it could not do so. Yet if the Court did weigh
all the facts in the record it would come to the same
conclusion as the district court and the unanimous
panel of the Circuit Court.
The courts below carefully and extensively documented in the record that—as a matter of fact—the
Petitioners did not present specific evidence that their
lives were in danger as a result of their role as litigants
asserting claims against Chiquita. Petitioners do not
challenge these factual findings in their Question
Presented. Their hyperbole is merely that, unsupported by evidence in the record.
STATEMENT OF THE CASE
1. Petitioners’ lawsuit has audaciously pushed
the limits of an accommodating federal judiciary.
Under the cloak of anonymity, Petitioners have made
incendiary allegations that Respondent and its executives abetted the murder or disappearance of their
family members. After 15 years of publicly degrading
Respondent, Petitioners had no evidence to support
their sensational allegations and summary judgment
has now been entered in favor of Respondent.
2. On September 5, 2019, the district court granted
summary judgment in a detailed 73-page opinion.
See 08-md-01916 Doc. 2551 (S.D. Fla. Sept. 5, 2019).
Summary judgment for the Respondent was not
surprising given the underlying facts of this case. That
decision is currently on appeal to the Eleventh Circuit.
3. As the district court noted, Petitioners are
“family members of Colombian nationals who were
killed in separate attacks in the Uraba or Magdalena
regions of Colombia between 1997 and 2004, at the
pitch of a prolonged civil war which displaced hun-

7
dreds of thousands of Colombian civilians from their
homes and claimed the lives of thousands.” See id.
at 1. The horrendous violence, death and destruction
of Colombia’s prolonged civil war is well documented
in federal court jurisprudence and the undisputed
facts of this case. See Escobar v. Holder, 657 F.3d
537, 540 (7th Cir. 2011) (“The battle that rages [in
Colombia] has many different actors: the government’s security troops, paramilitary groups, revolutionary guerrilla groups, and drug traffickers.”);
Sinaltrainal v. Coca-Cola Co., 256 F. Supp. 2d 1345,
1348 (S.D. Fla. 2003) (“The events giving rise to these
claims occurred against a backdrop of civil war that
has plagued Colombia with violence and terror for over
forty years. The civil unrest involves so-called leftwing guerrilla groups, right-wing paramilitary units,
and the Colombian government, including its military
and police forces.”).
4. At the time Petitioners’ family members were
killed, it was “complete chaos” in Colombia, a country
ravaged by internal political and criminal warfare.
See 08-md-01916 Doc. 2346-3, 99:5-17 (S.D. Fla. Mar.
16, 2019). As one former AUC commander testified,
guerrilla groups and paramilitary groups—all narcoterrorists—waged war against each other, the
Colombian government, civilians, and businesses that
operated in Colombia, causing violence and terror
to reign over the country. Id. A former brigadier general in the Colombian Army testified that the “narcoterrorists of FARC [Fuerzas Armadas Revolucionarias
de Colombia] and the narco-terrorists of ELN [Ejército
de Liberación Nacional], and the narco-terrorists
of the paramilitary [AUC, Autodefensas Unidas de
Colombia]” attacked each other and the Colombian
military attacked all three “because there was no ideology there. The ideology was cocaine. There was no

8
left or right ideologies. They’re bandits, terrorists,
drug dealers. We needed to attack them.” See 08-md01916 Doc. 2282-34, 15:6-18 (S.D. Fla. Feb. 15, 2019).
5. Petitioners’ decedents were killed in this horrible drug-fueled war in Colombia. After more than 15
years of litigation, the production and review of millions of pages of documents, more than one hundred
depositions, and thousands of motions and other
filings, Petitioners cannot identify even a single perpetrator in the death of any decedent. The record
contains no police reports or any other documents that
identify even one perpetrator who killed Petitioners’
decedents. The record contains no evidence as to why,
with whom, or at whose behest, if anyone’s, the
unknown perpetrators acted.
6. In the trial court, Petitioners speculated that
the unknown perpetrators were members of one of
the warring factions known as the AUC. But Petitioners have never sued the AUC or any of its members,
nor could they without knowing the identities of the
actual perpetrators. Instead, Petitioners relied on a
sweeping theory of secondary liability to ask the district court to transfer the liability of these unknown
perpetrators to an American company which operated
in Colombia at the time, Respondent Chiquita.
7. Like thousands of other businesses and individuals in Colombia during the prolonged war between
narco-terrorists fighting each other and the government, Chiquita itself was a victim of extortion by the
narco-terrorist AUC. The second in command of the
AUC, Salvatore Mancuso,3 for instance, testified that
3

Mancuso was deposed in the United States Penitentiary,
Atlanta where he served a 15-year sentence as a drug kingpin
pursuant to 21 U.S.C. § 848.

9
if any person or business failed to pay the extortion,
they would face enormous consequence, including violence to people and property. See 08-md-01916 Doc.
2343-36, 43:1-7 (S.D. Fla. Mar. 15, 2019).
8. Another AUC commander, Otoniél Hoyos Perez,
testified that the AUC used violence and threats of
violence to force businesses to pay the AUC. See id. at
2343-33, 50:19-23.
9. Contrary to Petitioners’ assertions in their
Statement of the Case, Chiquita did not plead guilty
to illegally financing the AUC. Rather, Chiquita
entered into a plea agreement in the United States
District Court for the District of Columbia as to a
single-count violation of the International Emergency
Economic Powers Act (“IEEPA”), 50 U.S.C. § 1705(b)
and 31 C.F.R. § 594.204, for engaging in transactions
with the AUC, a Specially Designated Global Terrorist (“SDGT”) organization, without a license. In the
factual proffer supporting the plea agreement, the
Government acknowledged that the payments by
Chiquita were the result of extortion by the AUC. The
Government agreed that the following fact would be
proven “beyond a reasonable doubt”: “Castaño [AUC
top leader] sent an unspoken but clear message that
failure to make the payments could result in physical
harm to Banadex [Chiquita’s Colombian subsidiary]
personnel and property.” 08-md-01916 Doc. 2346-1,
at ¶ 21.
10. Given the facts of the case, the district court
granted summary judgment in favor of Respondent
because Petitioners’ proffered documentary evidence
“constitute[d] inadmissible hearsay, and even if accepted for its substantive content, it d[id] not support
the inferences urged by Plaintiffs.” 08-md-01916 Doc.
2551 at 71.

10
The district court found that:
The proffered circumstantial evidence, standing alone, is too speculative to support a
reasonable inference that the AUC more
likely than not was responsible for the death
of each bellwether victim, and would be
insufficient to withstand a directed verdict
at trial. The proffered expert testimony on
the “likelihood” of AUC involvement in each
death, based on geographical and temporal
overlays, does not qualify for admission under
Fed. R. Evid. 702 because it does not involve
the application of reliable methodologies or
principles. Id.
11. With respect to the use of pseudonyms and
the need to shield certain private information under
the protective order, Petitioners’ hyperbole that
the “Eleventh Circuit put lives at risk” is devoid of
evidentiary support in the record and launched only to
inflame and incite the Court into granting certiorari.
12. At the close of discovery and on the basis of a
full record, Respondent moved to preclude the use of
pseudonyms and to modify the protective order to lift
protections of certain private facts, in connection with
then-upcoming summary judgment and trial proceedings. Respondent did so on a discovery record that
clearly proved these protections were not warranted,
but rather part of Petitioners’ 15-year strategy of
making incendiary allegations and wounding the
reputation of the Respondent and its executives with
no evidence, only speculation, innuendo and rumor.
Indeed, many of the pseudonymous plaintiffs testified
at deposition that they had never been harmed or
even threatened because of their involvement in this
litigation. See 08-md-01916 Doc. 2253 at 7-10 (S.D.

11
Fla. Jan. 30, 2019). Many of them testified that they
were not even aware that their claims were being
prosecuted under pseudonym. Id.
13. In addition to eliminating the administrative
burden, cost and confusion created by the need to
file heavily redacted documents and parallel unredacted documents under seal, Respondent filed its
motion to protect the constitutionally-based principle
of openness in judicial proceedings. Also, Respondent
filed its motion in order to allow the public access to
the judicial record as it would soon be developed on
summary judgment and at trial with nothing hidden
but everything open for public scrutiny. Id. These
principles are important, especially given the history
of this case, because anonymity imbues the Petitioners’ unfounded claims with a tremendous aura of
seriousness, merit and credibility. Without enforcement of these principles, Petitioners could continue
their campaign to ruin the reputation of the Respondent and its officers shrouded in a cloak, invisible from
public access and scrutiny.
14. Petitioners’ rhetoric is the opposite of what is
in the record, facts they do not challenge in their
Question Presented. They do not raise as an error for
the Court to reverse the following findings by the
Eleventh Circuit:
To start, the district court had ample comparator evidence to support its ruling. For over
a decade, hundreds of plaintiffs have litigated
this case under their true names, and yet
nothing in the record suggests that they have
faced paramilitary retaliation.
. . . Lacking specific evidence, the pseudonymous appellants cite general evidence show-

12
ing that those who oppose paramilitary
groups or paramilitary-affiliated entities face
risks of paramilitary violence. But this evidence does not compel the conclusion that the
MDL plaintiffs face those risks.
. . . Indeed, the trial court found that the
evidence presented by the appellants supported only “a vague fear [of] retaliation or
bias against ‘human right[s] defenders’ . . .
but [did] not explain how their role in this
lawsuit . . . would implicate the same interests as those triggered by ‘human right[s]
defenders’ in present-day Colombia.” The
appellants’ “generalized, subjective assertions of fear” were simply not “the kind of
risk of physical or other injury” required to
treat them differently than other plaintiffs.
Much the same analysis was applicable in
determining “good cause” under Rule 26(c).
See Gulf Oil Co. v. Bernard, 452 U.S. 89, 102
n.16 (1981) (“To establish ‘good cause’ for a
protective order under Federal Rule of Civil
Procedure 26(c), the courts have insisted on
a particular and specific demonstration of
fact, as distinguished from stereotyped and
conclusory statements.” (quotation omitted
and alterations adopted)). And without a distinct concrete harm justifying good cause,
the appellants were no more entitled to protection from disclosure of their identities
than they were to file pleadings under pseudonyms. Pet. App. 16a-24a.
15. Petitioners had ample opportunity in the district court to prove that they were in danger as a
result of choosing to be plaintiffs in a lawsuit in the

13
courts of the United States. The record clearly establishes that they did not do so. Neither the district
court nor the Eleventh Circuit is to blame for
Petitioners’ lack of evidence.
REASONS TO DENY THE WRIT
I. For Decades, Federal Courts Have Uniformly Applied the Same Burden of Proof
Standard Applied by the Eleventh Circuit.
Petitioners assert that there is “chaos” in this area
of the law related to modifying protective orders. In
support of this proposition they cite but one 36-yearold district court case, H.L. Hayden Co. v. Siemens
Med. Sys. Inc., 106 F.R.D. 551, 552 (S.D.N.Y. 1985),
and on this authority exaggerate further: “that inconsistency and unpredictability has endured for decades
now, with no end in sight.” Pet. 6.
Yet the district court in Hayden articulates the law
“in this area” of protective order modification exactly
the same way as did the Eleventh Circuit below.
Far from “chaos,” this area of the law has remained
the same, has been clear and has been readily discernable by both courts and litigants for nearly four
decades.
Specifically, the district court in Hayden described
the burden of proof for modification of protective
orders as follows:
Despite the language of Rule 26(c), which
requires a party advocating non-disclosure to
show good cause for a protective order, an
order or agreement requiring confidentiality
may occasionally be made without the requisite showing of good cause . . . The courts have
required the party or parties opposing modi-

14
fication of such orders and agreements [i.e.,
those entered without a showing of good
cause] to bear the burden of establishing the
need for continued protection. . . . However, if
the issuance of a protective order was supported by a showing of good cause, the burden
of persuasion is typically placed on the party
seeking modification.
H.L. Hayden Co., 106 F.R.D. at 554. The Eleventh
Circuit articulated the burden exactly the same way:
We begin with a review of the law. Federal
Rule of Civil Procedure 26(c) allows a court to
issue a protective order upon a finding of
good cause. See Fed. R. Civ. P. 26(c) (“The
court may, for good cause, issue [a protective
order].”). The plain text of the rule suggests
that a district court must find good cause to
issue a protective order. See id. But as we’ve
recognized, district courts often issue stipulated protective orders without finding good
cause. See Chi. Tribune Co. v. Bridgestone/
Firestone, Inc. 263 F.3d 1304, 1307 (11th
Cir. 2001) (per curiam). . . . In Chicago
Tribune . . . we recognized that the party
seeking continued protection from the stipulated order (i.e., the party opposing the modification) had never established good cause
for the protection in the first place. . . . For
this reason, we placed the burden of establishing good cause in the first instance on
the party seeking the protection . . . When
faced with a motion to modify to [sic] a stipulated protective order, the party seeking the
stipulated order’s protection must satisfy
Rule 26(c)’s good cause standard. The bur-

15
den differs, though, when a court enters a
disputed protective order after finding good
cause. . . . once a party has established good
cause under Rule 26(c), the party moving to
modify the protective order bears the burden
to establish good cause for the modification.
Pet. App. 19a-21a (emphasis and alterations in original). Petitioners cite no case in the 36 years between
Hayden and the Eleventh Circuit’s decision that
holds differently. There are, however, many cases in
accord, all holding that if good cause was not shown
for the original protective order, the burden of showing good cause is on the party seeking continued
confidentiality protection. See H.D. Media Co. v.
United States Dept. of Justice (In re: National
Prescription Opiate Litig.), 927 F.3d 919, 931 (6th Cir.
2019); Phillips ex rel. Estates of Byrd v. General Motors
Corp., 307 F.3d 1206, 1211 n.1 (9th Cir. 2002); Bayer
AG v. Barr Lab., 162 F.R.D. 456, 463-64 (S.D.N.Y.
1995); Factory Mut. Ins. Co. v. Insteel Industries, Inc.,
212 F.R.D. 301, 303 (M.D.N.C. 2002). United States v.
Homeward Residential, Inc., No. 4:12-CV-461, 2016
WL 279543, at *4 (E.D. Tex. Jan. 22, 2016) (citing In
re Enron Corp. Sec., Derivative, & ERISA Litig., 2009
WL 3247432, at *3 (S.D. Tex. Sept. 29, 2009)).
II. Petitioners Attempt to Manufacture a
Circuit Split by Mischaracterizing the
Eleventh Circuit’s Decision.
Petitioners assert that the Eleventh Circuit made
an “assumption” that the stipulated order was entered
without a showing of good cause, and argue that “it
makes no sense to assume that because an order was
stipulated, its good cause is suspect.” Pet. 30. The

16
Eleventh Circuit assumed nothing. What it did was
thoroughly examine the factual record, correctly apply
the abuse of discretion standard and find that no good
cause was shown by the Petitioners in the district
court, in the first instance.
As the Eleventh Circuit explained in Chicago
Tribune, it is not unusual for district courts to initially
issue stipulated protective orders without finding
good cause, deferring that finding to a later point
in the litigation. See Chicago Tribune Co. v.
Bridgestone/Firestone, Inc., 263 F.3d 1304, 1307-08
(11th Cir. 2001). This practice in the district courts
is not a violation of Fed. R. Civ. P. 26, but rather a
practical rule or method of convenience that “replaces
the need to litigate the claim to protection document
by document, and postpones the necessary showing
of ‘good cause’ required for entry of a protective
order until the confidential designation is challenged.”
Id. at 1307. This practical rule is hardly new or
controversial and has been used by district courts
for decades in order to preserve judicial and party
resources by making the pretrial phase of cases,
especially in complicated MDL matters, more efficient.
See H.L. Hayden Co., 106 F.R.D. at 554. Indeed, the
protective order entered by the district court here
employed this practical rule, providing that any
party could challenge the designation of “any material” as confidential and apply to the Court for a
determination. If such application were made, the
“producing party” seeking to maintain confidentiality protections “bears the burden of establishing
that the designation is proper.” Pet. App. 48a-49a
(Paragraph 8 of the Protective Order).
The Amici law professors do not seem to appreciate
this practical rule and how it operates to streamline

17
pretrial litigation. Contrary to what the professors
argue, the Eleventh Circuit does not “disregard” Rule
26(c)’s good cause requirement, but merely recognizes
that in some cases that determination is postponed to
a later point in the litigation.
Nor does the Eleventh Circuit “except any kind
of protective order from the ‘good cause’ requirement.”
See Brief for Civil Procedure Law Professors as
Amici Curiae Supporting Petitioners at 3. Just the
opposite is true. The Eleventh Circuit held that the
good cause requirement of Rule 26(c) must always be
met, and always met in the first instance by the party
seeking to keep information private and out of the
public judicial record. If this burden is met at the
time the protective order is first entered, which is
usually the case with disputed or contested protective
orders, then the Eleventh Circuit correctly states that
“once a party has established good cause under Rule
26(c), the party moving to modify the protective
order bears the burden to establish good cause for
modification.” Pet. App. 21a. On the other hand, if the
facts in the record show that this burden was not
met at the time the protective order was initially
entered, which is often the case with stipulated protective orders, then the Eleventh Circuit also correctly
states that the converse is true and “the burden of
establishing good cause in the first instance is placed
on the party opposing the modification,” given that it
had not previously shown good cause. Pet. App. 20a.
The Petitioners and professors mischaracterize
the foundation of the Eleventh Circuit’s decision. The
Eleventh Circuit made a fact-bound determination
that there was no showing of good cause at the time
the protective order was initially entered. The burden,
therefore, remained with the Petitioners. This deci-

18
sion is not only logical and correct, it is consistent with
the holding of every court that has found, as a matter
of fact, that there was no showing of good cause in
the first instance.
The Petitioners and professors, in their zeal to criticize, fail to acknowledge that the Eleventh Circuit’s
position regarding timing of the good cause determination in some cases is identical to that in the Federal
Judicial Center’s Manual for Complex Litigation (4th
ed. 2004), §11.432, which the professors cite with
approval:
When the volume of potentially protected
materials is large, an umbrella order will
expedite production, reduce costs, and avoid
the burden on the court of documentby-document adjudication. Umbrella orders
provide that all assertedly confidential material disclosed (and appropriately identified,
usually by stamp) is presumptively protected
unless challenged. Such orders typically are
made without a particularized showing to
support the claim for protection, but such
a showing must be made whenever a claim
under an order is challenged.
One principle the professors do not and cannot dispute is that whenever the good cause determination
is made, the party seeking protection must, in the
first instance, establish good cause to rebut the constitutionally embedded principle of openness of judicial
proceedings in order to keep information secret and
out of the public scrutiny.
Only a false conflict is presented by Petitioners.
There is no dispute in the federal courts that if the
facts of a case establish that there was no showing of

19
good cause in the first instance, the burden is on the
party seeking the continued protection; but if the facts
of a case show that good cause was shown for the
protective order in the first instance, then the burden
is on the party seeking to modify it.
III. There Is No Three-Way Circuit Split.
All circuit courts that have addressed this
issue agree with the Eleventh Circuit. In H.D. Media
Co. v. United States Dept. of Justice, the Sixth Circuit
held that when a district court enters a stipulated
protective order without making a finding of good
cause, then upon the filing of a motion to modify, the
burden of demonstrating good cause remains with the
party seeking protection. 927 F.3d at 931. The Sixth
Circuit relied on a decision by the Ninth Circuit in
Phillips, 307 F.3d at 1211 n.1 (“The burden of proof
will remain with the party seeking protection when
the protective order was a stipulated order and no
party had made a ‘good cause’ showing.”).
The cases Petitioners cite from the Seventh and
Second Circuits do not conflict with the Eleventh
Circuit’s decision. First and foremost, none of the
cases involve the central fact found by the district
court and affirmed by the Eleventh Circuit upon
review of the record: a protective order issued without
an initial showing of good cause. This finding by
the Eleventh Circuit is dispositive of the Petition.
Furthermore, it was not raised by Petitioners in
the questions presented as an error for the Court to
review. It is, therefore, waived and not properly before
the Court. See Sup. Ct. R. 14.1(a); Izumi Seimitsu
Kogyo Kabushiki Kaisha v. United States Phillips
Corp., 510 U.S. 27, 34 (1993) (“Our faithful application of Rule 14.1(a) thus helps ensure that we are
not tempted to engage in ill-considered decisions of

20
questions not presented in the petition.”); Yee v. City
of Escondido, 503 U.S. 519, 536 (1992) (“Rule 14.1(a)
forces the parties to focus on the questions the
Court has viewed as particularly important, thus enabling us to make efficient use of our resources.”).
Although the foregoing disposes of the Petition, there
are several other reasons why none of the cases
cited by Petitioners present a circuit conflict.
The Seventh Circuit’s decision in Heraeus Kulzer,
GMBH v. Biomet, Inc., 881 F.3d 550 (7th Cir. 2018),
actually undermines Petitioners’ position. In Heraeus
Kulzer, good cause was shown by the defendant for
entry of the original protective order. Id. at 555. The
Seventh Circuit’s holding, therefore, that plaintiff—as
the party moving to modify a protective order entered
for good cause should bear the burden of proof (see id.
at 567)—is entirely consistent with the Eleventh
Circuit’s decision below.
Moreover, Heraeus Kulzer was an action under 28
U.S.C. § 1782, a statute which allows a party to file
suit in a district court to obtain discovery for use in a
foreign investigation, lawsuit or open legal proceedings. Heraeus Kulzer, GMBH, 881 F.3d at 554. There,
the plaintiff initiated the § 1782 action to obtain
discovery from the defendant to use in the plaintiff’s
misappropriation of trade secrets lawsuit against the
defendant in Germany. Id. at 555. Actions under
§ 1782, of course, are unique and involve considerations in shaping discovery not present in this case.
Those considerations focus on “§ 1782(a)’s objective to
assist foreign tribunals in obtaining relevant information that the tribunals may find useful . . . .” See
Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S.
241, 262 (2004). As Heraeus Kulzer demonstrates, in
§ 1782(a) actions courts must weigh a number of

21
complicated factors like whether the terms of a
protective order, or its modification, will delay a
foreign investigation or impede the enforcement of
a foreign judgment. See Heraeus Kulzer, GMBH, 881
F.3d at 566-68.
Petitioners also cite a case decided forty years
earlier, American Tel. & Tel Co. v. Grady, 594 F.2d
594 (7th Cir. 1978). That case is easily distinguishable because it involved the United States Government
as a nonparty intervenor seeking discovery documents
to commence a Sherman Act lawsuit against AT&T in
another jurisdiction. See id. at 595. Given the unique
implications of providing access to the Government
to commence a separate proceeding against a party,
the Seventh Circuit placed the burden on the government to establish “exceptional circumstances” to intervene and modify the protective order. See id. at 597.
Moreover, unlike here, there was no finding by either
the trial court or the Seventh Circuit that the original
protective order had been entered without a showing
of good cause. See id.
The Second Circuit cases Petitioners cite also fail
to show a conflict. In Geller v. Branic Int’l Realty
Corp., 212 F.3d 734 (2d Cir. 2000), there was no
motion to modify a protective order. Rather, Geller
involved a motion to implement the full terms of a
settlement agreement that contained a provision for
the sealing of the entire case file, which the Court had
previously ordered. See id. at 735-37. Upon discovering that the district court had sealed only the settlement agreement, but not the entire case file, a party
asked the district court to implement the sealing
provision related to the entire case file. Id. at 736. As
the Second Circuit explained, a district court has
specific responsibilities when approving a settlement

22
agreement that includes a confidentiality order, in
that it is required to “carefully scrutinize” the terms
before endorsing it. See id. at 738. Because the
settlement agreement imposed an “obligation” on the
district court (i.e. sealing the entire case file) and the
court agreed to do so by “so ordering” the settlement
agreement, the court was thereby bound to abide by
its obligation. See id. at 737 (“In many cases, a
stipulated settlement will contemplate actions that
are not within the power of the litigants to perform,
but rather lie within the power of the district court
ordering the settlement. When a district court ‘so
orders’ a settlement containing such provisions, it is,
with some limited exceptions, obliged to perform.”).
Here, the temporary, pretrial protective order governing discovery between the parties did not impose
obligations on the district court to seal judicial documents after discovery or permit the Petitioners to
indefinitely shield their identities in the proceedings.
See Pet. App. 36a-56a. Thus, there is no applicable
rule to be drawn from Geller.
Four years later, the Second Circuit ruled that notwithstanding a stipulated pretrial protective order, a
district court did not abuse its discretion when it sua
sponte unsealed judicial documents in connection with
summary judgment filings. Gambale v. Deutsche Bank
AG, 377 F.3d 133, 142 (2d Cir. 2004). As the Second
Circuit explained: “The public has a common law
presumptive right of access to judicial documents . . .
and likely a constitutional one as well.” Id. at 140
(citations omitted). Accordingly, “[a] district court
that concludes that there is a public right of access to
judicial documents thus acts within its jurisdiction
when it modifies or vacates a protective order to allow
that access[.]” Id. at 142. The Second Circuit therefore

23
ruled that the burden was on the party seeking to
withhold the information from the public record to
establish “that there was a continuing compelling
reason to require that the documents remain under
seal.” See id.
Petitioners also cite Geller citing Martindell v.
International Telephone & Telegraph Corp., 594 F.2d
291, 296 (2d Cir. 1979) for the proposition that:
“Absent a showing of improvidence in the grant of a
Rule 26(c) protective order or some extraordinary
circumstance or compelling need . . . a witness should
be entitled to rely on the enforceability of a protective
order . . .” Pet. 16. Like Geller, Martindell is a case
where good cause was shown in the first instance.
Courts often use the phrase “improvidence in the
grant of a Rule 26(c) protective order” to indicate
whether it was or was not entered for good cause. See,
e.g., Martindell, 594 F.2d at 296. The factual record
below is the opposite: no good cause was shown in
the first instance. Furthermore, Martindell involved
the placement of a higher burden on a non-party
intervenor, the Government, seeking to use the information in a subsequent prosecution, and therefore
is further inapposite. See id. at 292. There, the Government, as a nonparty, sought access to deposition
transcripts of witnesses who were the subject of a
separate criminal investigation. Id. Those transcripts
and related documents had been sealed pursuant to
a stipulation of confidentiality “so ordered” by the
district court. Id. at 293. The Government sought the
deposition transcripts for criminal investigation of the
deponents arguing that “it would be unable to secure
statements from the witnesses because they would
claim their Fifth Amendment rights in any investigative interviews by the Government.” Id. The district
court denied the Government’s request because “the

24
requested turnover would raise constitutional issues.”
Id. The Second Circuit affirmed requiring the Government as a nonparty intervenor to show “some extraordinary circumstances” to modify a protective order
because “the Government as an investigator has
awesome powers which render unnecessary its exploitation of the fruits of private litigation.” See id. at 296.
(quotations omitted).
SEC v. TheStreet.com, 273 F.3d 222 (2d Cir. 2001)
does not present a conflict. There, the district court
held a hearing to determine good cause for entry of
the protective order and specifically ruled that good
cause had been shown when the order was entered. Id.
at 227. Additionally, the party seeking access to the
materials was a non-party intervenor, a media company. Id. at 224. Intervenors generally carry the
burden under Federal Rule of Civil Procedure 24 to
show a sufficient interest in the litigation they seek
to access. See Fed. R. Civ. P. 24. Furthermore, given
that modification was sought by the media, the Second
Circuit affirmed the district court’s decision to allow
access by applying a balancing test between the
privacy rights of the litigants and the interest of the
media and public, concluding that the media had a
relevant interest in the depositions because they
pertained to the interaction of the SEC and the NYSE
and that interest outweighed possible reputational
harm to the litigants. TheStreet.com, 273 F.3d at 234.4

4

The court also declined to apply the Martindell presumption
against access to discovery materials because it found that there
could be no reasonable reliance on the protective order under the
circumstances of the case. Id. at 233. For the reasons discussed
infra at Sections IV and V, the Petitioners here have waived any
reliance argument, nor could they be deemed to have reasonably
relied on a temporary pretrial order with an express modification

25
The other Second Circuit cases cited at pages 16 and
17 of the Petition arise under many different facts
and circumstances than those before the Eleventh
Circuit, yet are consistent with the decision below
because the protective orders in those cases were
entered for good cause. Or, conversely, there is no
finding by the courts in those cases that the protective
order was entered without good cause. For example,
Petitioners also cite Kiobel by Samkalden v. Cravath,
Swaine & Moore LLP, 895 F.3d 238, 240 (2d Cir. 2018),
but that case is easily distinguishable because it
involved a § 1782 action brought by the plaintiff
seeking discovery materials from the law firm that
had previously represented Shell, so that plaintiff
could file a second lawsuit in the Netherlands against
Shell. Id. at 247 (“The decision to alter the confidentiality order without Shell’s participation, and
without considering the costs of disclosure to Shell,
makes this case exceptional, and mandates reversal
. . . If foreign clients have reason to fear disclosing all
pertinent documents to U.S. counsel, the likely results
are bad legal advice to the client, and harm to our
system of litigation.”).
Petitioners’ reliance on a Magistrate Judge’s decision in Nielsen Co. (U.S.), LLC v. Success Sys., fares
no better, as it was also an attempt by a party to
modify a protective order to use protected information
“for purposes beyond the present litigation,” a second
lawsuit. 112 F. Supp. 3d 83, 120-22 (S.D.N.Y. 2015).

provision. See, e.g., Gambale, 377 F.3d at 142 n.7 (“[P]rotective
orders that are on their face temporary or limited may not justify
reliance by the parties. Indeed, in such circumstances reliance
may be unreasonable.”) (quoting TheStreet.com, 273 F.3d at 23031).

26
The last two cases cited in Section I(A) of the
Petition further contradict Petitioners’ assertion of a
circuit split. Those cases articulate the same burden
of proof as the Eleventh Circuit. See In re Methyl
Tertiary Butyl Ether (MTBE) Prods. Liab. Litig., 60 F.
Supp. 3d 399, 404 n.32 (S.D.N.Y. 2014) (“[I]f the
issuance of a protective order was supported by a
showing of good cause, the burden of persuasion is
typically placed on the party seeking modification.”
(quoting H.L. Hayden Co., 106 F.R.D. at 554) (emphasis added) (alteration in original)); Bayer AG, 162
F.R.D. at 464 (“The Court agrees with Hayden v.
Siemens that: If good cause was not shown when a
protective order was initially issued, then the party
seeking to maintain the order should bear the burden
of establishing the need for continued protection.
However, if the protective order was supported by
a showing of good cause, the burden should be on
the party seeking modification.” (emphasis removed)
(citation omitted) (internal quotation marks omitted)).
With respect to the Third Circuit, Petitioners similarly mischaracterize Pansy v. Borough of Stroudsburg,
23 F.3d 772 (3d Cir. 1994). Pansy is not evidence of
a circuit conflict because it is entirely consistent with
the Eleventh Circuit’s decision. The Third Circuit in
Pansy meticulously examined the record and found
that the order of confidentiality was “improvidently
granted,” and remanded the case for further proceedings. Id. at 792. In doing so it explained that when
there is no legitimate or providently granted confidentiality order, then the movant shall have access,
but “when that is not the case [i.e., when a protective
order has been entered for good cause], the court
should require the party seeking modification to show
why the secrecy interests deserve less protection than
they did when the order was granted.” Id. at 790.

27
Additionally, the Pansy court noted that the document at issue did not implicate the presumption of
judicial openness. See id. at 780-81 (“We have previously recognized a right of access to judicial proceedings and judicial records, and this right of access is
‘beyond dispute.’” (citation omitted)).
The law in the Third Circuit evolved further in
In re Avandia Mktg., Sales Pracs. & Prod. Liab. Litig.,
924 F.3d 662 (3d Cir. 2019). There, the Third Circuit
held that where judicial records in summary judgment
briefing were at issue, the district court was required
to place the burden on the party seeking continued
sealing. See id. at 669. This is so because “the common
law right of access begins with a thumb on the scale in
favor of openness—the strong presumption of public
access.” Id. at 676. Thus, “[c]onsideration of the public’s right of access must be the starting point, not just
one of multiple factors. The scale is tipped at the
outset in favor of access.” Id. The court also held that
under a Rule 26 analysis, “[o]nce sealing is challenged, the proponent of sealing must make a particularized showing of the need for continued secrecy if
the documents are to remain under seal.” Id. at 675
n.10.
Far from the Third Circuit being in conflict with the
Eleventh Circuit, the common law right of public
access doctrine provides a separate and distinct
rationale supporting the soundness of the decisions
below.5 See also Heraeus Kulzer, GMBH, 881 F.3d at
5

Although the decisions in the courts below were not expressly
grounded in the common law right of public access doctrine, the
dispute arose from Respondent’s request to modify the protective
order so that the confidential information at issue could be
publicly revealed in summary judgment proceedings and at trial.
The Court has discretion to “affirm on any ground that the law

28
567; Gambale, 377 F.3d at 142; DePuy Synthes Prods.,
Inc. v. Veterinary Ortho. Implants, Inc., 990 F.3d 1364,
1370 (Fed. Cir. 2021) (citing In re Violation of Rule
28(d), 635 F.3d 1352, 1358 (Fed. Cir. 2011) (“[T]he
district court ‘cannot abdicate its responsibility . . . to
determine whether filings should be made available to
the public’ simply because the parties agree to [a]
protective order.” (quoting Procter & Gamble Co. v.
Bankers Tr. Co., 78 F.3d 219, 222 (6th Cir. 1996)))).
IV. There Is No Frequently Recurring and
Important Issue in Civil Litigation Presented in the Petition Because the Legal
Standard and Analysis for Modifying
a Protective Order Is Well Developed,
Understood and Applied Uniformly by the
Federal Courts.
As is clear from the foregoing discussion of nearly
40 years of federal jurisprudence, when considering
the standard for modifying a protective order, federal
courts begin as a first step by examining the nature of
the protective order—was it or was it not entered upon
a finding of good cause. See United States v. Aetna Inc.,
No. 1:16-CV-1494 (JDB), 2016 WL 8738422, at *9
(D.D.C. Sept. 22, 2016) (“The first factor is whether
‘good cause’ was shown for the original protective
order’ . . . If so, ‘the burden is on the party seeking
modification to show good cause for modification.’”
(Bayer AG, 162 F.R.D. at 462) (emphasis added)); H.L.
Hayden Co., 106 F.R.D. at 554; Chicago Tribune Co.,
263 F.3d at 1307-08; H.D. Media, 927 F.3d at 931. If
good cause was shown for the original protective order,
the burden is on the party seeking modification, but if
and the record permit and that will not expand the relief granted
below.” Thigpen v. Roberts, 468 U.S. 27, 30 (1984).

29
good cause was not shown, then the burden is on the
party seeking continued confidentiality protection.
The determination of whether good cause was
shown in the first instance is intensely fact-driven.
Chicago Tribune, 263 F.3d at 1315 (“[W]hether good
cause exists for a protective order is a factual matter
to be decided by the nature and character of the
information in question, this determination, supported by findings of fact, must be conducted upon
remand.”); H.D. Media Co., 927 F.3d at 939-40 (“We
remand for the district court to reconsider each
pleading filed under seal or with redactions and to
make a specific determination as to the necessity of
nondisclosure in each instance.”).
Once the court determines who bears the burden of
demonstrating good cause, federal courts then turn to
a balancing test to weigh the need for confidentiality
versus the need for disclosure. The good cause
balancing test is also well understood and implicates
several considerations not relevant here, like the status of the party seeking modification and its reasons
for doing so weighed against the need for further
secrecy, all in the context of the constitutionallybased presumption in favor of openness in judicial
proceedings.
V. Petitioners Forfeited Their Reliance
Argument.
In OBB Personenverkehr AG v. Sachs, 577 U.S. 27,
37 (2015), the Court held that an argument never
presented to any lower court is forfeited. See also
United States v. Jones, 565 U.S. 400, 413 (2012) (“The
Government did not raise it below, and therefore the
D.C. Circuit did not address it . . . we consider the
argument forfeited.”); Arkansas Game & Fish Comm’n

30
v. United States, 568 U.S. 23, 37-38 (2012) (“[M]indful
that we are a court of review, not of first view.” (citing
Cutter v. Wilkinson, 544 U.S. 709, 718 n.7 (2005)
(alteration in original))). As a review of Petitioners’
briefs in the district court and Eleventh Circuit clearly
shows, their reliance argument was never presented
to either court. There is neither a section nor even a
sentence in any of Petitioners’ briefs below that raise
the reliance argument. Petitioners’ briefs below can
be found at 08-md-01916 Doc. 2277 (S.D. Fla. Feb. 13,
2019)(Response in Opposition); Corrected Appellants’
Brief, 19-11494 (11th Cir. June 25, 2019); and Appellants’ Reply Brief, 19-11494 (11th Cir. July 18, 2019).
VI. Even if the Court Were to Consider Petitioners’ Reliance Argument, It Should Be
Rejected.
The Eleventh Circuit found that the protective
order was entered without a showing of good cause.
Petitioners do not challenge this fact-bound decision
as a question for the Court to consider. Review of
whatever error they believe was committed by the
appellate court in making this finding has been
waived.
The fact that no good cause was shown completely
undermines Petitioners’ reliance argument. Protective orders that are granted with no showing of
good cause do not justify reliance by a party. Pansy,
25 F.3d. at 792. In Agent Orange, the Second Circuit
affirmed the lower court’s modification of a protective
order, holding that appellant’s reliance argument
was unavailing because “they never have been
required to demonstrate good cause for shielding any
document from public view . . . the district court
properly entered the orders initially as temporary
measures, and properly lifted them thereafter.” In re

31
“Agent Orange” Prod. Liab. Litig., 821 F.2d 139, 14748 (2d Cir. 1987).
Petitioners’ reliance argument should also be
rejected because a party cannot justifiably rely on
temporary protective orders that are applicable
only to the pretrial stages of the litigation and subject
to reconsideration upon commencement of trial to
provide permanent protection. See TheStreet.com,
273 F.3d. at 231 (holding there could be no justifiable
reliance on protective orders that are temporary or
limited); see also Gambale, 377 F.3d at 142 n.7 (finding
that a party could not have reasonably relied on a
sealing order that was explicitly temporary).
The Protective Order entered by the district court
below applied to “pretrial discovery” only and expressly
did “not prevent the parties from introducing or using
Confidential or Highly Confidential Information into
evidence at trial, subject to any pretrial order issued
by” the district court. Pet. App. 43a, ¶ 3(b). The
protective order further provided that: “The procedures for the use of designated CONFIDENTIAL or
HIGHLY CONFIDENTIAL documents, materials, or
information in any filing, during any hearing or during
the trial of this matter will be determined by the
parties and the Court in advance of the filing, hearing
or trial.” Id. at 55a-56a, ¶ 18.
The protective order also provided for “modification”
of its terms: “If any party finds that any term of this
Order impedes its ability to prepare or present its
case or is otherwise objectionable, that party may
apply to the Court for modification of and relief from
any of the terms of this Order.” Id. at 51a, ¶ 13.
This plain language undermines and discredits
Petitioners’ reliance argument that: “If Petitioners

32
had known that the protective order provided very
little enduring protection, they may well have made
different choices.” Pet. 29. It did, in fact, provide very
little enduring protection.
Other provisions in the protective order undermine
Petitioners’ reliance argument. A party may not reasonably rely on continued confidentiality under a protective order which permits anyone at any time, including non-parties, to object. In Lugosch v. Pyramid Co.,
435 F.3d 110, 126 (2d Cir. 2006), the court stated:
In fact, the confidentiality order specifically
contemplates that relief from the provisions
of the order may be sought at any time: “This
Confidentiality Order shall not prevent anyone from applying to the Court for relief
therefrom.” Given this provision, it is difficult
to see how the defendants can reasonably
argue that they produced documents in reliance on the fact that the documents would
always be kept secret.
The protective order entered by the district court
here contains almost identical language: “Nothing in
this Order prevents non-parties from submitting
objections to the Court.” Pet. App. 51a, ¶ 14. The
protective order further provided that any party could
challenge the designation “of any material,” and if
such application were made, the “producing party”
seeking to maintain confidentiality protections “bears
the burden of establishing that the designation is
proper.” Id. at 48a-49a, ¶ (8(b)).
Given these provisions of the protective order,
Petitioners’ reliance argument has no merit and
should be rejected.

33
CONCLUSION
The Petition for a Writ of Certiorari should be denied.
Respectfully submitted,

FRANK A. DANTE
MELISSA F. MURPHY
BLANK ROME LLP
One Logan Square
130 N. 18th Street
Philadelphia, PA 19103
(215) 569-5645
dante@blankrome.com
mfmurphy@blankrome.com

MICHAEL L. CIOFFI
Counsel of Record
THOMAS H. STEWART
BLANK ROME LLP
201 East Fifth Street
1700 PNC Center
Cincinnati, OH 45202
(513) 362-8701
cioffi@blankrome.com
stewart@blankrome.com

Counsel for Respondent
August 6, 2021

